No. 20-951

In the Supreme Court of the United States
MARY STEWART, AS ADMINISTRATOR OF THE ESTATE OF LUKE O. STEWART, SR.,
DECEASED, PETITIONER
v.
CITY OF EUCLID, OH, ET. AL., RESPONDENT
CERTIFICATE OF SERVICE
I, Edward J. Bennett, counsel for Professor Stoughton and Policing Scholars and
member of the bar of this Court, hereby certify that on this 9th day of February 2021, I
caused three copies of the Brief of Professor Seth Stoughton and Policing Scholars as
Amici Curiae in Support of Petitioner to be served by overnight delivery on the following
counsel:
James A. Climer
Frank H. Scialdone
MAZANEC, RASKIN AND RYDER Co.,
L.P.A.
100 Franklin's Row
34305 Solon Road
Cleveland, OH 44139
(440) 248-7906
jclimer@mrrlaw.com
fscialdone@mrrlaw.com
* 3 copies
Counsel for Respondents

Devi M. Rao*
*Counsel of Record
RODERICK & SOLANGE
MACARTHUR
JUSTICE CENTER
501 H Street NE, Suite 275
Washington, DC 20002
(202) 869-3434
devi.rao@macarthurjustice.org
* 3 copies
Easha Anand
RODERICK & SOLANGE
MACARTHUR
JUSTICE CENTER
2443 Fillmore St., #380-15875
San Francisco, CA 94115
(510) 588-1274
easha.anand@macarthurjustice.org
* 1 copy

Sarah Gelsomino
Jacqueline Greene
Terry H. Gilbert
FRIEDMAN & GILBERT
50 Public Square
Suite 1900
Cleveland, OH 44113
(216) 241-1430
sgelsomino@fggfirm.com
* 1 copy
Counsel for Petitioner

I further certify that all parties required to be served have been served.
s/ Edward J. Bennett
EDWARD J. BENNETT
WILLIAMS & CONNOLLY LLP
725 Twelfth Street, N.W.
Washington, DC 20005
(202) 434-5000
ebennett@wc.com
Counsel for Amici Curiae

